audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the Glendale Police Department Arizona
GR-90-01-001
October 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Glendale Police Department (GPD), Arizona.  The purpose of the grants is to enhance community policing.  The GPD was awarded a total of $4,556,602 to hire 54 new police officers and redeploy the equivalent of 9.6 existing full-time officers from administrative duties to community policing.

We reviewed the GPD's compliance with eight essential grant conditions, and found weaknesses in the areas of redeployment and status reporting.  As a result, we question $48,754 and recommend $7,410 be put to better use, as identified below. 1

The MORE 95 grant required the GPD to redeploy 4.9 FTEs for FY 1996, FY 1997, and FY 1998.  During FY 1998 the GPD was able to demonstrate and document the redeployment of 4.9 FTEs into community policing.  However, in FY1996, the GPD was only able to document the redeployment of 4.3 sworn officer FTEs into community policing and in FY 1997, the GPD was only able to document the redeployment of 3.6 sworn officer FTEs into community policing.  Because the GPD failed to redeploy 4.9 FTEs into community policing for each year of the grant, we are questioning $48,754 (federal share).

	For the completed MORE 95 grant, we determined that there were unspent funds of $7,410 (federal share).  Because the GPD did not notify the COPS office that this amount should be deobligated, we recommend that COPS deobligate the $7,410 and the funds be put to better use.

	Several status reports were either not accurate, not timely or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 



The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.